No.

IN THE
SUPREME COURT OF THE UNITED STATES

WILLIAM RUSSELL WILLIAMS — PETITIONER
(Your Name)
VS.
PEOPLE OF THE STATE OF MICHIGAN — RESPONDENT(S)
PROOF OF SERVICE
L WILLIAM RUSSELL WILLIAMS, do swear or declare that on this date,
July
, 2020 , as required by Supreme Court Rule 29 I have served the enclosed
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR
A WRIT OF CERTIORARI on each party to the above proceeding or that party’s
counsel, and on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to each of
them and with first-class postage prepaid, or by delivery to a third-party commercial
carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Tuscola County Prosecutor, 207 E Grant St, Caro, MI 48723

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

JV/y

f

10

,20_M
)

(Signature)

